5

V i-S

l * A ;;i ?

IN THE
SUPREME COURT OF THE UNITED STATES
supreme Court, U.s,
FILED

JAN - 4 2021
OFFICE OF THE Cl FQk-

FELIX 0. BROWN JR. - PETITIONER, Pro se.
vs.
KEITH FOLEY - RESPONDENT, Warden; et.al.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

FELIX 0. BROWN JR. #3J2-676
GRAFTON CORRECTIONAL INSTITUTION
2500 SOUTH AVON-BELDEN ROAD
GRAFTON, OHIO 44044

QUESTIONS PRESENTED FOR REVIEW
1.

In the context of a Habeas proceeding, does the United States Supreme
Court require a showing of actual innocence in order to pursue an
independant action in equity under Fed. Civ. Proc. R. 60(d)(J)?

2.

Is there a federal procedural rule, written or unwritten, which permits
a United States Court of Appeals and/or a United States District Court
to simply refuse to acknowledge and determine a presentation of cause
& prejudice —presented within a Merit (Traverse) Brief to address a
procedural default: merely because the cause & prejudice argument(s)
were no presented prior to the merits of the constitutional claim, in
a specific chronological order? Or is it sufficient for a 2254 habeas
petitioner, proceeding pro se, to simply ensure that their' cause and
prejudice presentation is separate entitled and distinguishably raised
within the pages dedicated to that specific Ground for relief?

3.

Can a 2254 petitioner’s United States Constitutional Claim, properly
presented within bis habeas petition and traverse brief, be denied a
merit determination during a past-habeas proceeding simply based on a
passage of time: When it has been shown that the Federal District Court
had actively mislead petitioner in regard to the sufficency of bis cause
& prejudice presentation, presented to overcome the procedural bar placed
against said constitutional claim?

4.

Even in a State that does not recognize the prison mailbox rule, as
articulated in Houston v. Lack, does a prisoner proceeding pro se within
a 2254 proceeding overcome a procedural default based upon a late State

i

filing:

Where it is shown that he delivered (surrendered) his State

petition to prison authorities for processing and mailing in sufficient
time for it to arrive timely in the normal course of events?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES

*State v Brown,Nos. 95-T-5349 and 98-T-0061
(Ohio Ct.App.03/31/2000)
♦State v Brown,89 Ohio St.3d 1455,04/04/2001
*Brown v Bagley,200.3 U .S .Dist .LEXIS29724(N .D .Ohio 06/25/2003)
*gfhfcn vs Bag|ey> 20033U;J Si ,Di61 iLEXIS29723^' (NiD^OhihcO8/05/?QO3):)
♦Brown v Hall■,2009 Ohio 1349(Ohio Ct.App. 03/23/2009)
♦State v Brown‘,2012 Ohio 4465(0hio Ct.App. 09/28/2012)
♦State v Brown,2017 Ohio 4241(0hio Ct.App. 06/12/2017)
♦Brown v Foley,2020 U.S. App.LEXIS23753,No.20-3272,United
States Court of Appeals for the Sixth Circuit
♦Brown v Foley,2020 U.S. app.LEXIS30454,No.20-3272,United
States Court of Appeals for the Sixth Circuit

V- 4 *

Ml

TABLE OF CONTENTS

Page
OPINIONS BELOW

1

•±

JURISDICTION
CONSTITUTIONAL STATUTORY PROVISIONS INVOLVED

V'l

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

3H

CONCLUSION

37

CERTIFICATE OF SERVICE

39
INDEX TO APPENDICE

APPENDIX A - United States Sixth Circuit Court of Appeals, 07/27/2020 Order
APPENDIX B - United States Sixth Circuit Court of Appeals, 0^/23/2020 Order
APPENDIX C - United States District Court, Northern District of Ohio,
02/10/2020 Order
’
APPENDIX D - United States §Jxth Circuit Court of Appeals, 07/23/2015 Order

i

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Buck v Davis, 137 S.Ct. 759,774(2017)
-£'S-

34

Coleman v. Thompson, 501 U.S. 722, 750 (1991)

27

Edwards v. Carpenter, 529 U.S. 446, 451(2000)

27

Haines v. Kerner, 404 U.S. 519 (1972)

24

Harris v. Nelson, (1969) 394 U.S. 291(1969)

29

Powell v. Alabama, 287 U.S. 45, 53(1932)

2S

Strickland v. Washington, (1984) 466 U.S. 688

28

Trevino v. Thaler, 133 S. Ct. 1911 (2013)

2J '

United Student Aid Fund Inc. v. Francisco J. Espinosa, 559 U.S. 260, 272(2010).

26, 28

Amadeo v. Kemp, 773 F.2d 1141,1144-45(llth Cir. 1985)

27

Foster v. Warden Chillicothe Inst., 2014 Fed. App. 650(6Th Cir. 2014)

27

Maples v. Stegall, 340 F.3d 433(6th Cir. 2003)

27

Mitchell v. Rees, 114 F.3d 571, 577 (6th Cir 1997)

28

United States v. Challoner, 538 F.3d 745(10th Cir. 2009)

27

Spitnas v. Boone, 464 F. 3d 1213,1225(10th Cir 2006)

25

Parsons v. Money, 2007 U.S. Dist. LEXIS 13021(N.D. Ohio)

28

Sanders v. United States, 8 F. Supp. 2d 674(N.D. Ohio 1998)

28

State v Howell, 137 Ohio App.3d 804(llth App. Dist.2000)

21
U

j

V

'--N.

STATUES AND RULES
U.S. Const., Art. 1/5 9. cl. 2

28

U.S. Const. Amend. 5

18,25,28

U.S. Const. Amend. 6

28

18 U.S.C.S.§ 3006A(g)

23,28

30
28 U.S.C.JL.1254(1)

17

28 U.S.C. § 2254

23

Rule 8 of the Rules Governing 28 U.S.C. § 2254

28

Federal Rules of Civil Procedure, Rule 15(c)(1)(B)

30

Federal Rules of Civil Procedure, Rule 52(a)

24

Federal Rules of Civil Procedure, Rule 59(A)(2)

21

Federal Rules of Civil Procedure, Rule 60(b)

21,22,25,26,28
30

Federal Rules of Civil Procedure, Rule 60(d)

30

Ohio Appellate Rule 26(B)

18, 21

OTHER
12-60 Moore's Federal Practice-Civil § 60.44 [4](2015)

2&

12-60 Moore's Practice-Civil § 60.44(5][c]

2 (o
f*

vt

- - '--C-

OPINION BELOW
y

*Brown
*Brown
*Brown
*Brown

v
v
v
v

j

Bagley,2003:U.S. Dist.LEXIS29724,(N.D.Ohio 2003)
Bagley,2003 U.S. Dist .LEXIS29723,(N.D.Ohio 2003)
Foley,2020 U.S.App.LEXIS23753(6th Cir.2020)
Foley,2020 U.S.App.LEXIS30454(6th Cir.2020)

STATEMENT OF JURISDICTION
The United States Court of Appeals,for the Sixth Circuit,
denied Petitioner a COA on 07/27/2020;and then denied Petitioner's
Petition for Rehearing with suggestion for Rehearing En Banc on
09/23/2020. Moreover, Petitioner was informed by and through an
11/10/2020 correspondence from the Supreme Court of United States
Clerk,Mr.Scott S.Harris, that:"The Court extended the deadline to
file petitions for Writs of Certioari in all cases...150 days from;,
•timely petition for rehearing." Thereby, jurisdiction in this Court
is timely and properly sought pursuant to 28 U.S.C.S.

2101(c).

The Ohio Court of Common Pleas
Trumbull County, Ohio
Case No.95 T 127
Petitioner's convictions for one count of murder with a
firearm specification upon upon which he is currently serving a
sentence of 15 years to life imprisonment,with three actual incar­
ceration

with three actual incarceration to he served prior to

and consecutive with the principle sentence on that count, and
count one of having a weapon while under a disability, upon which
he is currently serving a sentence of 1 1/2 years incarceration,
to be served concurrently with the sentence on the primary charge:
as ^ result of feeing found guilty by a jury on 09/29/1995.
1

Ohio Court of Appeals
Eleventh Appellate District
Case Nos. 95-T-5349 and 98-T-0061
Ohio Supreme Court
Case No. 2000-0929 (Discretionary Appeal; Claimed Appeal of Right)
Case No.2001-0245(Appeal from App.R. 26(B) Application)

On October 31, Petitioner filed a timely notice of direct appeal of his conviction to the
Ohio Eleventh District Court of Appeals, but that appeal was dismissed for want of prosecution
on June 10,1996.
Qn September 9,1996 Petitioner, represented by new counsel, filed an application to
reopen his appeal in which he alleged that he had been denied effective assistance of appellate
•counsel by reason of previous counsel's failure to file an appeal brief. That application was
granted on October 30,1996 and, after finding that the Petitioner was "deprived of effective
assistance of appellate counsel [,]" the appeal was reinstated.
On April 3, 2000, the state appellate court affirmed the trial court's judgment of
conviction and sentence1.
On May 17, 2000, petitioner appealed the foregoing decision to the Ohio Supreme
Court.
On June 30, 2000 - file stamped 07/07/2000—Petitioner filed pro se a application to
reopen his direct appeal, therein he asserted that he had been denied the effective assistance
/'
of appellate counsel for failure to raise claims involving the trial court's refusal to give a
accident instruction (Petitioner's sole theory of defense); and trial counsel's failure to object to
the trial court's refusal to instruct the jury on said.

V

1 State v. Brown, 2000WL522339(Ohio Ct. App. Mar. 31, 2000)

'

2

On December 27, 2000, the state appellate court denied petitioner's application to
reopen his appeal, finding it to be fatally deficient as a consequence of his failure to show good
cause for filing such application four days past the deadline.
On January 9, 2001 petitioner's pro se motion for reconsideration was filed, where
therein Petitioner argued, and provided irrefutable documented evidence, that he in fact
surrendered his App. R. 26(B) application over to prison authorities with sufficient time
remaining for said R. 26(B) to have reached it destination and been timely filed by the clerk of
courts in the normal course of events. On March 5, 2001, the state appellate court overruled
petitioner's motion for reconsideration.
Petitioner, proceeding pro se, then timely filed a Notice of Appeal and Memorandum in
Su pport of Jurisdiction with the Ohio Supreme Court, where therein Petitioner raised the two
proceeding constitutional claims.under Proposition of Law One.

■

,

On April 4, 2001, the Ohio Supreme Court declined to accept jurisdiction: holding the
appeal as not involving any substantial constitutional question.
United States District Court, Northern District of Ohio; Eastern Division
Habeas Corpus Case No 1:01CV 02476
Document No.

1

Petitioner's 28 USC 2254 For Writ Of Habeas Corpus; Filed Pro se, on 10/29/2001

2

Random Assignment To Magistrate Judge William Baughman, on 10/29/2001

3

Administrative Track DCM Initial Order, Chief Judge Paul R. Matia; entered: 10/30/2001

4

Magistrate Judge's Initial Order To The Ohio Attorney General: To Show Cause...;
entered:10/31/2001

5

Assistant Attorney General, Bruce Horrigan, Motion For Extension of Time Until
12/21/2001 To File Answer And Return Of Writ; entered:ll/21/2001
3

6

Magistrate Judge Baughman's Order Granting Motion For Extension of Time Until

112/21/2001; entered: 11/26/2001
7

Return Of Writ Filed By Asst. Atty. Gen. Horrigan; entered: 12/21/2001

8

Appendix To Return of Writ Filed By Margaret Magley; entered: 12/26/2001

9

Notice of Filing of Transcript Of Proceedings Suppression Hearing Dated 09/25/1995
Filed By Margret Magley; entered 12/26/2001

10

Notice of Transcript of Proceedings Jury Trial 09/25/95-10/2/95 Filed By Margret
Magley; entered: 12/26/2001

11

Notice of Filing Partial Transcript of Proceeding Volume II, Jury Trial Dated 9/27/95 Filed
By Margret-Magley; entered: 12/26/2001

12

Notice of Filings of Transcript of Proceedings Hearing On Remand Dated 7/8/99 Filed By
Margret Magley; entered: 12/26/2001

13

Order Referring Case To Magistrate Judge Baughman For Report And Recommendation,
Case Assigned To The Administrative Track, Judge Donald C. Nugent; entered
01/02/2002

14

Petitioner's Motion For To Expand Record; entered 01/10/2002

15

Petitioner's Motion For Extension Of Time Until 02/15/2002 To File Traverse Brief;
entered 01/10/2002“
Magistrate Judge Baughman's Order (NON-DOCUMENT) Granting Petitioner's Motion
for Extension of Time until 02/15/2002; entered 01/11/2002

16

Petitioner's Traverse (Compete 88 Page Document, With. Attachments: Exhibits);
entered 02/15/2002

4

17

Respondent's Motion To Strike Traverse and/or Order Petitioner To Properly Serve
Respondent; entered 02/20/2002

18

Magistrate Judge's Order Denying Motion To Strike, Petitioner Ordered To Immediately
Serve Complete Copy Upon Counsel For Respondent; entered 02/21/2002

19

Respondent s Motion To Withdraw Previously Filed Motion To Strike (Where It Was
r

Discovered That Petitioner Had In Fact Proper Served Traverse Upon Respondent);
entered 02/21/2002
Magistrate Judge's Order Denying as Mute Respondent's Motion to Withdraw
Document; Entered 02/21/2002
20. Petitioner's Motion For Leave To Supplement Petitioner's Traverse To Return Of Writ
With Exhibit 1; entered 02/27/2002
Magistrate Judge's Order Granting Petitioner's Motion to Supplement; entered
02/28/2002
21 Supplemental Inclusion To Traverse To Return Of Writ, filed by Petitioner; entered
03/12/2002
22

Petitioner's Certified Mail Receipt Returned; Served Office Of Ohio Attorney General On
11/05/2002; entered 03/13/2002

23

Petitioner's Motion To Expand The Record (Attachments:# Letters # Transcript
Excerpts); entered 05/09/220

24 Magistrate Judge's Order Ordering That Respondent File Responses To Petitioner's
Motion's Filed On 01/19/2002 And 05/09/ 2002 On or Before 06/03/2002; entered
05/14/2002

5

25 Respondent's Opposition To Petitioner's Motion To Expand The Record And Evidentiary
Hearing; entered 05/29/2002
26

Magistrate Judge's Order Denying Petitioner's Motions To Expand The Record And
Request For An Evidentiary Hearing; entered 05/31/2002

2/

Certified Mail Receipt Returned Upon Petitioner; entered 06/05/2002

28

Petitioner's Motion To Alter/Amend Judgment Regarding Request For Evidentiary
Hearing; entered 06/19/2002

29

District Court Judge Donald C. Nugent Marginal Order Denying Petitioner's Motion To
Alter/Amend Judgment; entered 07/01/2002

30 Address Change Notice By Petitioner; entered 04/10/2003
31 Order Referring Case to Magistrate Judge David S. Perelman to Facilitate Efficient and
Timely Administration of Justice. (The Referral To Magistrate Judge Baughman Is
Withdrawn. Judge Paul R. Matia; entered 06/04/2003
32 Magistrate Judge Perelman's Report And Recommendation That The Petition Be
Dismissed; entered 06/26/2003
33

Petitioner's Motion For A 10-Day Extension Of Time Until 07/24/2003 To File Objection
To Report & Recommendation of Mag. Judge Perelman; entered 07/11/2003

34 Returned Mail (7/11/03 Marginal Entry Order) Addressed to Richard Brown Jr./entered

07/29/2003
35

Petitioner's Objection To Mag. Judge Perelman's R&R; entered 07/29/2003
t

36

District Judge Nugent's Memorandum, Opinion Adopting Mag. Judge Perelman's Report
& Recommendation And Denying Petitioner's Petition For A Writ Of Habeas Corpus; The

6

Court Further Certifies, Pursuant To 28:1915(A)(3), That An Appeal From This Decision
Could Not Be Taken In Good Faith, And There Is No Basis Upon Which To Issue A
Certificate Of Appealability. Entered 08/12/2003.
37

District Judge Nugent's Judgment, In Accordance With The Memorandum, Opinion,
Denying Petitioner's Motion Pursuant To 28:2254; The Court Certifies, Pursuant To
1915(A)(3), That An Appeal From This Decision Could Not Be Taken In Good Faith, And
There Is No Basis Upon Which To Issue A Certificate Of Appealability. Entered

08/12/2003.
38

Petitioner's Motion Pursuant To FRCP 59(A)(2) For A New Trial; Reargument Of Merits.
Entered 08/28/2003

39

Petitioner's Motion Pursuant To FRCP 59 to Alter or Amend Judgment: Motion for
Reargument. Entered 08/28/2003

40 Petitioner's Motion to Amend In Connection With Previously Filed FRCP 59 Motions. .
Entered 09/08/2003
41

Petitioner-Appellant's Notice of Appeal To the 6th Circuit Court of Appeals. Entered

09/11/2003
42 Judge Nugent's Marginal Order denying Petitioner's Motion for New Trial: "THE COURT
HAS REVIEWED PETITIONER'S 'RE-ARGUMENT OF MERITS' AND FINDS NO BASIS TO
ALTER OR AMEND ITS PREVIOUS JUDGMENT DENYING ORIGINAL PETITION." Entered

09/18/2003
43 Acknowledgment from the USCA for Sixth Circuit of Receipt of Notice of Appeal. Entered
09/23/2003; under USCA #03-4214.

7

44 Judge Nugent's Marginal Entry Order Denying Petitioner's Motion to Alter/Amend
Judgment. Entered 09/26/2003
Certified Record On Appeal Sent To US Court-Of Appeals For The Sixth Circuit. Entered
10/02/2003
45

Petitioner's Motion for Relief from Judgment Pursuant To Rule 60(B)2. Entered
10/03/2003

46 Judge Nugent's Marginal Entry Order.Denying Petitioner's Motion for Relief: "COURT
HAS CONDUCTED, DE NOVO REVIEW AND FINDS NO REASON TO MODIFY ORDER OF
.8/8/2003.",Entered 10/09/2003
47 Acknowled.gement.from the USCA for Sixth Circuit Of Receipt Of Certified Record
(Related Document(S) Notice Of Appeal)[USCA #03-4214], Entered 10/28/2003
48

Petitioner's Amended Motion For Relief From Judgment Pursuit To R. 60(B)(1), and/or
60(B)(6). Entered 11/04/2003

49 Judge Nugent's Marginal Order Denying Petitioner's Amended Motion for Relief from
Judgment. Entered 11/07/2003
50 True Copy Of Order From The USCA For The Sixth Circuit: Denying The Application For A
Certificate Of Appealability As To The Notice Of Appeal. Entered 03/15/2004 ,
(

51

■ -----------------

Petitioner's Motion For Relief From Judgment Pursuit To FRCP R. 60(B)(3). Entered
04/13/2004

52 Judge Nugent's Marginal Order Denying Petitioner's R. 60(B)(3) Motion. Entered
05/04/2004

Please be aware that each and every one of Petitioner's post-habeas motions were exclusively to address the
procedural default ruling of Petitioner's Ground Two for Relief.
8

" ■“

53

Petitioner's Motion For Findings of Fact And Conclusions Of Law - In Relation To

. Marginal Order Denying The R. 60(B)(3) Motion. Entered 05/19/2004
54 Judge Nugent's Order Denying Petitioner's Motion To Clarify (I.E. Motion For Findings
And Conclusions): "CONTRARY TO PETITIONER'S BELIEF'ONLY A MARGINAL ORDER' IS A
FULLY VALID ORDER OF THE COURT WITH SAME EFFECT AS A LONG. WINDED
EXPLANATION WITH ORDER ATTACHED; PETITIONER'S APPLICATION FOR FRCP 60(B)(3)
RELIEF IS AND WAS TOTALLY DEVOID OF MERIT." Entered 06/01/2004
55

Petitioner's Notice of Appeal To the 6th Circuit Court of Appeals from the Marginal Order
Of 5/4/04. Entered 06/08/2004

56 Petitioner's Request for a COA of The Denial of His R. 60(B) Denied. Entered 06/08/2004
57 Certificate of Service for NOA. Entered 06/17/2004
58 Judge Nugent's Order Denying Appellant's Request for COA.for R. 60(B): "PRIOR FRCP
60(B) REQUEST FOR RELIEF WAS DENIED AS IT WAS WITHOUT MERIT. ALL ISSUES RAISED
WERE PREVIOUSLY REVIEWED AND FOUND TO BE WITHOUT SUBSTANCE." Entered
06/17/2004
59 Acknowledgment from The USCA for Sixth Circuit of Receipt of Petitioner's NOA. (USCA
.

# 04-3818); Entered 06/25/2004

60 True Copy of Order from The USCA for The Sixth Circuit: Denying Petitioner's Motion for
COA. The Motion For Pauper Status Is Denied As Moot.( USCA # 04-3810) Entered
12/15/2004

9

61 Appeal Order from USCA for The Sixth Circuit: Denying Petitioner's Motion For an Order
Authorizing The District Court To Consider A Second Petition For Habeas Corpus Relief
under 28 U.S.C. 2254.(USCA # 05-3949) Entered 12/13/2005
62 Petitioner's Motion to Remove Judge Nugent from the Case. Entered 03/10/2006
63

Petitioner s Motion to Reopen Case for Purpose of Holding Evidentiary Hearing. Filed
03/10/2006

64 Judge Nugent's Marginal Order Denying Motion to Reopen Case. Entered 03/14/2006
65

Petitioner's Motion to Supplement Motion to Remove/Recuse Judge Nugent. Entered
03/24/2006

66 Petitioner's Motion To Reopen The Time To File An Appeal In Accordance With FRAP
4(A)(6). Entered 05/08/2006
67 Judge Nugent's Marginal Order Denying Petitioner's Motion for Order to Reopen the
Time to File an Appeal. Entered 05/23/2006
68 Petitioner's NOA To the 6th Circuit Court of Appeals from the Marginal Order Of
5/23/06. Entered 06/07/2006
69 Acknowledgment from the USCA for the Sixth Circuit of Receipt of Petitioner's NOA.
(USCA # 06-3803) Entered 06/15/2006
70 Judge Nugent's Order Denying Petitioner a COA From The 05/23/2006 Order. Entered

09/28/2006
71 True Copy Of Order From The USCA For The Sixth Circuit, Denying Petitioner Application
For A COA. (USCA Case No.06-3803) Entered 01/31/2007

10

72 Appeal Order From USCA For The Sixth Circuit: Denying Petitioner Permission To File a
second 2254 Petition In District Court. (USCA # 07-3681) Entered 11/01/2007
73 Petitioner's Motion And Affidavit For Relief From Judgment In Accordance With FRCP
60(B) In View Of The Exceptional Circumstances Involving The Enclosed Issue; Entered
11/29/2007
Judge Nugent's Marginal Order Denying Petitioner's R. 60(B) Motion; Entered
12/04/2007
74 Petitioner's Motion For Findings Of Fact And Conclusions Of Law; Entered 12/14/2007
75

Petitioner's NOA to The 6th Circuit Court Of Appeals From The Order Of 12/04/2007;
Entered 12/14/2007
Judge Nugent's Order (non-document) Denying Petitioner's Motion for Findings of Fact
and Conclusions of Law. "A REVIEW OF ALL FILINGS IN THIS CASE, INCLUDING ALL
ORDERS ISSUED BY COURT OF APPEALS SUFFICIENTLY EVIDENCE THERE IS NO MERIT TO
PETITIONER'S CLAIM AND ARE ADOPTED IN THIS DENIAL." Entered: 12/20/2007

76 Petitioner's Notice of Change of Respondent; Entered: 01/10/2008
77

Petitioner's "MOTION FOR CERTIFICATE OF APPEALABILITY IN DIRECT REGARD TO
12/04/07 NON DOCUMENT ORDER DENYING RULE 60(B)(6) MOTION; Entered:
01/10/2008

78 Acknowledgment from the USCA for the Sixth Circuit of Receipt of Notice Of Appeal;
(USCA Case No.08-3011). Entered: 01/15/2008
Judge Nugent's Order (non-document) Denying Petitioner's Motion for a COA; Entered:
‘ 01/15/2008

11

79 True Copy Of Mandate From The USCA For The Sixth Circuit Denying Petitioner's
Application For A COA, Under USCA Case No.08-3011; Entered: 07/09/2008.
80 Appeal Remark From United States Supreme. Court: Petitioner's Petition For A Writ Of
Certiorari Was Filed On 03/05/2009 And Placed On The Docket 04/10/09 As No. 089733; Entered: 04/15/2009
81 Appeal Order From US Supreme Court: The Petition For A Writ Of Certiorari Is Denied Re
(No.08-9733); Entered 05/27/2009
82 Appeal Order From The US Supreme Court: The Petition For Rehearing Is Denied Re .
(No.08-9733) Entered: 09/10/2009
83

Petitioner's Notice of Change of Name of Respondent and Mailing Address. Entered:
06/05/2013

84

Petitioner's Motion To Reopen Habeas Proceeding Pursuant To Civil Rules Of Procedure
60(B); Entered 07/22/2013

85 Judge Nugent's Order Denying Petitioner's Rule 60(B) Motion; Entered 09/06/2013
86

Petitioner's Motion For Leave To Amend Pending R. 60 Motion; Entered 09/09/2013

87 Judge Nugent's Marginal Entry Order Denying Petitioner's Motion To Amend Rule 60(B)
. Motion; Entered:09/ll/2013
88

Petitioner's NOA To The Sixth Circuit Court of Appeals Form The Order Of 09/05/2013.
Marginal Entry Order Of 09/11/2013; Entered 09/30/2013

89 Petitioner's Motion For A COA; Entered: 09/30/2013
90 Acknowledgment From The USCA For The Sixth Circuit of Receipt of NOA; Entered
10/08/2013

12

91 Judge Nugent's "ORDER THIS HEREBY CERTIES THAT, PURSUANT TO 28 U.S.C.
1915(A)(3), AN APPEAL FROM ITS SEPTEMBER 5, 2013 ORDER DENYING PETITIONER'S
MOTION TO REOPEN FILED PURSUANT TO FED. R. CIV.P. 60(B) COULD NOT BE TAKED IN
FAITH, AND THERE IS NO BASIS UPON WHICH TO ISSUE A CERTIFICATE OF
APPEALABILITY. FURTHER, THIS COURT HEREBY CERTIFIES THAT, PURSUANT TO 28 U.S.C.
1915(A)(3), AN APPEAL FROM ITS SEPTEMBER 11, 2013 ORDER DENYING PETITIONER'S
MOTION.FOR LEAVE TO AMEND HIS FED. R. CIV. P. 60(B) MOTION COULD NOT BE TAKEN
IN GOOD FAITH, AND THERE IS NO BASIS UPON WHICH TO ISSUE A CERTIFICATE OF
APPEALABILTY"; entered: 10/11/2013
92 True Copy of Order From The USA For The Sixth Circuit: Granting The Motion To Amend
The Application For A COA, The Application As Amended Is Denied, And The Motion To
Proceed In Forma Pauperis Is Denied As Moot; (USCA No.# 13-4156) Entered:
03/29/2014
93

Petitioner's Motion For Relief From Judgment; Entered: 11/12/2014

94 Judge Nugent's Marginal Entry Order denying Petitioner's Motion for Relief from
Judgment: "THIS CASE AND ALL ISSUES PRESENTED HAVE BEEN EXHAUSTIVELY
ANALYZED AND RULED UPON IN PRIOR RULINGS THROUGHOUT THE PAST 13 YEARS
AND THIS MOTION PRESENTS NO BASIS UPON WHICH ANY OF THE REQUESTED RELIEF
SHOULD OR COULD BE GRANTED." Entered: 02/11/2015
95

Petitioner's NOA To The Sixth Circuit Court of Appeals From The Marginal Order of
02/11/2015; Entered:03/04/2015

13

96 Acknowledgment From The USCA For The Sixth Circuit of Receipt Of NOA; (USCA # 153198.) Entered: 03/10/2015
97

Petitioner's Motion for Extension of Time until 04/18/15 To File Leave to Proceed on
Appeal in Forma Pauperis. Entered 03/16/2015

98 Judge Nugent's Order Certifying Pursuant To 28:1915(A)(3), That An Appeal Form The
2/11/15 Order Could Not Be Taken In Good Faith, And There Is No Basis Upon Which To
Issue A COA. Entered 07/24/2015
99 . True Copy Of The Order From The USCA For The Sixth Circuit: Denying The Application
For A Certificate Of Appealability. (USCA # 15-3198) Entered 07/24/2015
100 Appeal Remark from U.S. Supreme Court: The Petition for A Writ of Certiorari Was Filed
On 01/05/2016 and Placed On the Docket 01/13/16 As No. 15-7708. Entered
01/19/2016
101 Appeal Order From Us Supreme Court: The Petition For A Writ Of Certiorari Is Denied.
Entered 03/25/2016
102 Petitioner's Notice of Change of Respondent and Change of Address. Entered
|
09/05/2018
103 Appeal Remark,From USCA For The Sixth Circuit: A Petition For A Writ of Mandamus
Filed By Felix Brown; (USCA # 18-3921)
104 Petitioner's Notice Of Motion To Recuse District Court Judge Donald C. Nugent And
Motion Requesting That Judge Nugent Disqualify Himself From Entertaining and/or
Ruling Upon Any Further Matters Associated With The Above Enumerated

14

Case.(Attachments: ,l_Appendix A And B, Traverse And Objection To Report And
Recommendation). Entered 10/02/2018
105 Judge Nugent's Marginal Entry Order Denying Motion to Disqualify Himself. Entered
10/04/2018
106 Filing Error: Wrong Court. Courtesy Copy Only. Motion to Amend Writ of Mandamus,
And Motion to Hold Writ Of Mandamus In Abeyance Filed By Felix Brown. Modified Text
On 10/17/2018. Entered 10/16/2018
107 Appeal Order From USCA For The Sixth Circuit: Granting The Motion By Petitioner To
Voluntarily Dismiss The Petition For Writ Of Mandamus; (USCA #18-3921). Entered
10/22/2018
108 Petitioner's Motion and Affidavit Requesting Judge Nugent to Disqualify Himself.
Entered 12/17/2018
109 Petitioner's Motion to Have Attached Motion, Motion for Relief from Judgment Held in
Abeyance. Entered 12/17/2018
110 Judge Nugent's Marginal Entry Order Denying Petitioner's Motion.to Disqualify Himself:
"There Is No Basis In Law Or Fact To Warrant Recusal." (Related Doc# 108) Entered
01/10/2019
111 Judge Nugent's Marginal Entry Order Denying Petitioner's Motion to Have Motion for
Relief from Judgment Held in Abeyance. (Related Doc #109) Entered 1/10/2019

15

124

Judge Nugent's order denying petitioner's Pule 60(d)(1) motion for relief
from judgment.

Judge Nugent pronouced in part: "Mr. Brown presented no

new evidence and has made no showing of actual innocence. Because a
showing of actual innocence is a'.-required element for an independent
action for relief under Rule 60(d), Mr. Brown cannot show that he is
eligible for relief under this Rule." Entered 02/10/2020 (Related Doc.
#124).
Please Be Aware
Petitioner is unaware of the specific
document number for the following entries
Appeal order from U.S.C.A. for the Sixth Circuit: denying application for
a Certificate of Appealability, in regard to petitioner's denied Rule
60(d)(1) motion.

Ibe panel held in relevant part: "Although Brown asserts

that he has shown cause excusing the procedural default of his juryinstruction claim because the prison failed to mail his Rule 26(B)
application in a timely fashion, Brown has failed to offer any evidence
of actual innocence. Accordingly, reasonable jurists would not debate the
denial of Brown’s Rule 60(d) motion." (Case No. 20-3272). Brown v. Foley,
2020, U.S. App. Lexis 23753 (6th Cir.).
Petitioner's Petition For Rehearing, with Suggestion For Rehearing En Banc.
Order from U.S.C.A. for the Sixth Circuit, denying petitioner's Petition
For Rehearing, with Suggestion For Rehearing En Banc; holding:
"The Court received a petition for rehearing en banc. The original panel
has reviewed the petition for rehearing and concludes that the issues
raised in the petition were fully considered upon the original submission
J6

and decision of the case. The petitipn then was circulated to the full
Court. No Judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied." Entered 09/23/2020. Brown v. Foley 2020
U.S. App. Lexis 30454 (6th Cir.).
9.

True copy of the order from the U.S.C.A. for the Sixth Circuit: Denying the
Petitioner’s motion requesting a J4-day extension of time to file for a
petition for rehearing, with consideration for rehearing En Banc. Entered
07/08/20J9.

The United States Court of Appeals for the Sixth Circuit's 06/J0/20J9 opinion
denied Petitioner's petition for a Writ of Mandamus.
The United States Court of Appeals for the Sixth Circuit’s 07/23/20J5 opinion
denying Petitioner's Motion for certificate of Appealability —attempting to
appeal the federal district court’s denial of his FBCP 60(b)(4) motion; is
attached as Appendix D.

Citations of Published Opinions

J.

State v. Brown, 2000 Ohio App. Lexis J430 (JJth App. Dist.)

2.

State v. Brown, 2000 Ohio Lexis 3802 (Ohio Supreme Court)

3.

State v. Brown, 9J Ohio St. 3d J482 (Apr. 4, 200J)

4.

Brown v. Bagley, 2003 U.S. Dist. Lexis 29723 (N.D. Ohio)

5.

Brown v. Bagley, 2003 U.S. Dist. Lexis 29724 (N.D. Ohio)

6.

Brown v. Foley, 2020 U.S. App. Lexis 23753 (6th Cir.)

7.

Brown v. Foley, 2020 U.S. App. Lexis 30454 (6th Cir.)

J7

General Docket
United States Court of Appeals for the Sixth Circuit
USCA Case No.19-3090

1. Petitioner's Petition for Writ of Mandamus filed. Received 01/28/2019. Entered

02/04/2019
2. The case manager assigned for this case: Robin L. Johnson. Entered 02/04/2019
3. Appellant Motion to proceed in forma pauperis. Entered 02/04/2019
4. Petitioner's trust account statement filed, Entered 02/04/2019
5. Petitioner's CORRESPONDENCE: requesting information on Mandamus. Entered

02/11/2019
6. Petitioner's CORRESPONDENCE: requesting docket summary. Entered 06/03/2019
7.

True copy of the order from the USCA for the Sixth Circuit: Denying the Petitioner's
petition for a writ of mandamus. The panel for the USCA for the Sixth Circuit
pronounced in part: "Brown argues that the district court judge 'had a duty to recuse:
upon a clear showing of his pervasive biasness, antagonism, and manifest disregard
of the law,' but a review of the record below indicate no 'biasness, antagonism, and
manifest disregard of the law." Entered 06/10/2019

8. Petition's motion requesting a 15-day extension of time to file for a Petition for
Rehearing, with consideration for rehearing En Banc3. Filed 06/20/2019

3 Up to and including 07/09/2019.

18

Statues Involved: Constitutional, Statutory, and, Other Provisions

This case involves:

1.

U.S. Const, art. I, § 9, cl. 2 (The Illegal suspension of the great writ of habeas corpus);

3. U.S. Const. Amend. 5 (Due Process Clause)
4. Federal Rules of Civil Procedure, Rules 60(d)(1) and/or 60(d)(3).
5. Federal Rules of Civil Procedure, Rule 15(c)(l)(B)(the amendment asserts a claim or
defense that arose out of the conduct, transaction, or occurrence set out—or attempted
to be set out—in the original pleading).
6. Rule 8 of the Rules Governing 28 U.S.C. § 2254
7. 18 U.S.C. § 3006A.

Statement of the Case

Felix 0. Brown Jr. is an Ohio prisoner serving an 18 year to life prison sentence after being
convicted, by a jury, of one count of murder, with a firearm specification; and one count of
having a weapon while under a disability in 1995. This judgment was affirmed by the Ohio Court
of Appeals for the Eleventh Appellate District on 04/03/2000. Petitioner, proceeding pro se,
then prepared and filed an application to reopen his direct appeal pursuant to Ohio Appellate
Rule 26(B)-raising therein ineffective-assistance-of-appellate-counsel.4 Petitioner's R.26(B)
application had to be filed 07/03/2000 with the Trumbull County Clerk of Court to had be
4 Several of the ineffective-assistance-of appellate-counsel raised therein was addressed within the 2254 petition;
under Ground Two for Relief. That is, failure to assign as error; (1) the trial court's refusal to give a proposed
theory of defense instruction on accident to the jury; and (2) trial counsel's failure to object to the trial court's
refusal to give said.

J9

deemed timely; however, as a direct result of the delayed mailing of such by prison authorities
said R.26 (B) application was not filed until 07/07/2000 - four (4) days beyond the ninety day
deadline. On 12/27/2000, the state appellate cpurt found petitioner's reopening application
untimely and overruled the application.

On 01/09/2001, Petitioner, proceeding pro se, filed a motion for reconsideration in regard to
the court of appeals' 12/27/2000 ruling. On 03/05/2001, the state appellate court overruled
Petitioner's motion for reconsideration5.

On 02/01/2001, Petitioner, filed a Notice of Appeal and Memorandum in Support of Jurisdiction
with the Supreme Court of Ohio, asserting therein Two Proposition of Law -under the first
Petitioner raised the ineffective assistance of counsel claims addressed under habeas Ground
Two; and under the second, the claim "the confiscation and/or seizure of appellant's R.26(B)
application by prison personnel shortly before the filing deadline justified equitable tolling of
the ninety-day limitation period..." was raised.

On .04/04/2001 the Ohio Supreme Court dismissed the appeal as not involving any substantial
constitutional question.

Petitioner then on 10/29/2001 filed his 28 U.S.C. § 2254 Habeas Petition. Case No. 1:01 CV
2476. (Doc. 1) On 21/21/2001, the Respondent filed their' Return of Writ; asserting, therein,
s And overruled said in spite of Petitioner provided documented proof - i.e„ copies of cash withdraw slips; a copy
of the certified mail postage receipt; as well as copies of pages from the institution's mailroom log book (which
contained the location, time and date for all incoming legal mail) - so as to substantially prove that: prison
authorities were solely responsible for the delayed mailing of Petitioner's R. 26(B) where all previous mailings to,
and received from, the office of the Clerk of Courts for the Eleventh District Court of Appeals: only required one
business day to arrive via U.S. Mail.
This documented evidence was later included as part of the state record within Petitioner's federal habeas
proceeding, which Petitioner made reference to within his cause & prejudice presentation to address the
procedural default holding of Ground Two for Relief.

20

that Petitioner's first four grounds for relief - claiming ineffective assistance of appellate
counsel - were procedurally defaulted. (Doc. 6 - Doc. 12)

Petitioner then on 02/15/2002 filed his Traverse brief.6 On 06/26/2003 the Magistrate Judge
issued his Report and Recommended Decision, recommending that Petitioner's petition be
dismissed. Therein holding in regard to Petitioner's first four grounds for relief:

"[l]n the absence of showing of good cause for the delay the untimely claims were not
considered by the state appellate court. That being the cause, petitioner not only
failed to raise the claims of ineffective assistance of appellate counsel to the state
courts but his opportunity to do so has also expired. Therefore, those claims are
procedurally defaulted and can not be heard by this Court absent a showing of cause
and prejudice for such default. Petitioner has failed to meet his burden in this regard,
instead arguing the merits of his claim of ineffective assistance of appellate counsel. In
light of such failure, the first four claims for relief raised herein are procedurally
defaulted and will not be considered by this Court."7 [Italic print added.]
Id. On page 10 thereof.

Thereby, Petitioner, then being utterly confused and bewildered as to which cause and
prejudice presentation would be deemed by the court as legally adequate, then prepared and
filed a timely objection to the Magistrate Judge's R&R on 07/29/2003; and therein substituting

6 The ineffective assistance of appellate counsel claim raised under his Ground Two was the only one of the four
habeas grounds for relief which were presented to the state appellate courts. Thereby, within his Traverse,
Petitioner reserved himself to arguing cause and prejudice so as to overcome the procedural bar raised against
the constitutional claims within Ground Two: only. In fact, Petitioner devoted seven and one-half (7 'A) typed pages
to the delayed mailing of the R. 26(B) by prison authorities - pages.44 to 51- and two (2) pages - 43 to 44 - to the
cause and prejudice suffered by appellant counsel's failure to raise said constitutional claims within Petitioner's
direct appeal.
7 Now given the vague nature of the specific content of Magistrate Judge Perelman's adequate assessment in this
regard, in the face of Petitioner's double cause & prejudice presentation, clearly Petitioner was affirmatively
misled to believe that said his cause & prejudice was legally inadequate.

2J

the double cause & prejudice demonstration as contained within his Traverse8 by simply
arguing as Cause: the delayed mailing of his R. 26(B) by prison authorities; and Prejudice: as
appellate counsel's failure to raise the dead-bang winner constitutional claims encompassed
within Petitioner's R.26(B) on direct appeal.

The Federal District Court Judge, Donald C. Nugent, on 08/05/ 2003, then adopted in full the
Magistrate Judge's R & R decision and denied Petitioner's habeas petition. (Doc. 36)

In the diligent pursuit to have the constitutional merits of constitutional claim raised within
Ground Two reviewed, Petitioner then filed a Fed. R. Civ. P. 59(A)(2) on 08/28/2003. (Doc. 38
and Doc. 39). Further, on 09/05/2003 Petitioner also filed an amendment to said R.59 motion.
(Doc. 40)

On 09/09/ 2003, Petitioner filed with the United State Court of Appeals for the Sixth Circuit his
Notice of Appeal and an application for a Certificate of Appealability,- seeking to appeal the
denial of his habeas petition. (Doc. 41).

The Federal District Court entered a marginal order denying, both, the R. 59 motion as well as
the motion to amend said on 09/18/2013. (Doc.42, and Doc. 44, respectively).

Petitioner then on 10/02/2003 filed the first of his Fed. R. Civ. P. 60(b) motions, in his continued
effort to receive a review and determination on the constitutional merit of his claims rose
under Ground Two. (Doc. 45). And on 10/08/2018 the federal district court denied said R.60(b)
motion by marginal order. (Doc. 46)-

Clearly; Petitioner was induced by the specific, yet vague, content of the Magistrate Judge's R & R to surrender
his double cause and prejudice presentation.

22

And on 03/15/2004, the United States Sixth Circuit Court of Appeals denied Petitioner's
09/09/2003 request for a COA. (Doc. 50).

Upon becoming aware of the United State Supreme Court holding in Trevino v. Thaler, 133 S. Ct.
1911 (2013), Petitioner filed what amounted to his fourth R. 60(b) motion - this time he
pursued said under subsection (b)(6) - asserting therein that a "major change in prevailing
habeas law" enabled him to establish the necessary cause and prejudice to excuse the
procedural default of his "ineffective-assistance-of-trial-counsel claim" encompassed within
"the second ground for relief raised in his habeas petition. (Doc.84)

The Federal District Court denied said R. 60(b)(6) motion on 09/11/2013; and subsequently
denied a COA. (Doc. 91).
Petitioner thereafter sought a COA in the Federal Sixth Circuit Court of Appeals on 09/27/2013.
(Doc. 88). This endeavor, too, was unsuccessful, but not unfruitful. For in the course of
explaining its' determination that Petitioner had failed to satisfy the standard for the issuance
of a certificate of appealability, the appellate court incidentally disabused Petitioner of a
induced fallacy he had ling languished regarding the actual basis of the district court's 2003
procedural holding to Ground Two in his habeas petition. That is, in the course of articulating its
opinion, the federal court of appeals declared it had ascertained from the Magistrate Judge's
R&R that the district court's procedural ruling as to Ground Two actually constituted an
expression by the habeas court that it had found Petitioner to have never presented a cause
and prejudice argument: for the delayed mailing of his Ohio App. R. 26(B), period.

To wit:

23

"[U]pon review of Brown's ineffective-assistance-of-appellate-counsel claim, as
asserted in his ground two of his 2001 habeas corpus petition, the district court
concluded that the claim was not procedurally defaulted due to any error or omissions
by appellate counsel. Rather, the district court found that claim procedurally defaulted
because it was raised in Brown's pro se application to reopen his direct appeal and
that application was denied because it was not timely filed. The procedural default of
Brown's second ground for relief was Brown's fault, not appellate counsel's...." [Bold
print added.]
Id. Appendix D (Case No. 13-4156)
Now had Petitioner not been misled by the federal district court - specifically the vague
content of the Magistrate Judge's R & R - into believing that his double cause & prejudice
presentation put forth to specifically overcome the procedural bar of ground two was
simply inadequate: as opposed to the incorrect legal determination that he had simply not
offered the cause & prejudice argument that he had indeed submitted within his Traverse,
Petitioner would have then been able to interpose a appropriate objection; and thereafter
if necessary filed an appropriate certificate of appealability with the federal court of
appeals.

Instead/unbeknownst to Petitioner at the time, he had been induced to surrender his
double cause & prejudice presentation: which was in fact adequate, and technically
correct, under pro se prisoner status.

Under Rule 52(a), Fed. R. Civ. P., in conjunction with pronouncements of Haines v. Kerner,
404 U.S. 519 (1972), a procedural right devolves on a pro se habeas petitioner to have a
court disposing of a properly presented claim adapt its dispositional findings to achieve

24

meaningful notice to such litigate in light of the inaptness attendant his pro se status.
Where a court fails to do so, it has "acted in a manner inconsistent with due process." id.

Petitioner is a pro se litigant. This is not to say that he is illiterate, nor is it to say that his
ability to comprehend what is expressed in what he is reading should be regarded as beset
by a handicap for the fact of his status. What is essential to fairness on the basis of this
status, however, is recognition of the fact that, "[ejven the intelligent and educated layman
has a minimal Or sometimes no skill in the science of law." Powell v. Alabama, 287 U.S. 45,

53 (1932).
It is this precept that best explains how Petitioner was unable to discern the district court's
legal determination that Ground Two remained "[procedurally defaulted and will not be
considered by this Court": because Petitioner had completely omitted any evidence or
argument at all about why Ground Two never came to be adjudicated in the state court
proceeding; as distinguished from a ruling based on legal sufficiency of the argument and
evidence he did present. This latent distinction lies at the very heart of what is now
recognized as an unconstitutional deprivation of due habeas review. That is, being heard at
a meaningful time in a meaningful manner. (Doc. 95, at 6-7)

"If the court proceeds to hear the habeas corpus petition and finds facts without notice to
the petitioner sufficient to permit any meaningful participation by the prisoner, the
resulting judgment on the petition may be void and may be set aside under Rule 60(b)(4)9.

9 A violation of due process during the adjudication of the habeas proceeding can be demonstrated by showing,
e.g., that the adjudication involved a procedural omission that incapacitated meaningful review of the basis of the
court's decision. See Spitnas v. Boone, 464 F. 3d 1213,1225(10th Cir 2006).

25

There is no theoretical limit to the possibilities that a judgment could be void because a
court with jurisdiction over the subject matter and jurisdiction over the parties nonetheless
"has acted in a manner inconsistent with due process of law." 12-60 Moore's Federal
Practice-Civil § 60.44 [4](2015). "[T]he mere fact that a significant amount of time has
passed since a void judgment was rendered cannot 'cure' its fatal infirmity. For this reason,
some authorities states that a motion under 60(b)(4) may be made at any time." 12-60
Moore's Practice-Civil § 60.44[5][c].

"Due process requires notice 'reasonably calculated, under all the circumstances, to
appraise interested parties ... and afford them an opportunity to present their objections.'"
United Student Aid Fund Inc. v. Francisco 1. Espinosa, 559 U.S. 260, 272(2010).

Thereby, on 11/12/2014, Petitioner filed a R. 60(b)(4) motion: asserting, therein, that he
had been denied due process within his original habeas proceedings where the district
court adjudication of his Ground Two involved a procedural omission that incapacitated
meaningful reconsideration and appellate review of the true basis of the district court's
decision- where the habeas court had failed to take notice of and determine the sufficiency
of Petitioner's Cause & Prejudice presentation because Petitioner had presented such after
the merits of the constitutional claims. (Doc. 93) Petitioner also, argued that the timing of
his R. 60(b)(4) was entitled to Equitable Tolling; in light of the specific content contained
with the Federal Sixth Circuit's 03/25/2015 Order.

26

On 02/11/2015, the federal district court denied the R. 60(b)(4) motion10. Judge Nugent
pronounced the following:

"This case and all issues presented have been exhaustively analyzed and ruled upon in
prior rulings throughout the past 13 years and this motion presents no basis upon
which any of the requested relief should or could be granted."11

Id. [R.94]

Thus, Petitioner, respectfully submits, if this is true then Judge Nugent has readily admitted that
he had knowing disregarded the applicable rules of law squarely decided by the United States
Supreme Court for the sole purpose of preventing Petitioner from obtaining the benefit of his
defense. Hence, the unlawful suspension of the Great Writ in direct regard to the constitutional
claims contained within Petitioner's Ground Two for Relief. The prejudice suffered is now there
is the absence of any adequate remedy of law12.

10 Judge Nugent subsequently denied a COA. (Doc. 94).
11 It has been as error, as a matter of law, for a federal district judge to rely on his unsubstantiated personal
feelings. Amadeo v. Kemp, 773 F.2d 1141,1144-45(lltb Cir. 1985).
12 '"[A] habeas petitioner who has failed to meet the State's procedural requirements for presenting his federal
claims has deprived the state courts of an opportunity to address those claims in the first instance." Coleman. 501
U.S. at 732.We therefore require a prisoner to demonstrate cause for his state-court default of any federal claim,
and prejudice therefrom, before the federal habeas court will consider the merits of that claim. 501 U.S. at 750."
Edwards v. Carpenter, 529 U.S. 446, 451(2000)
"In all cases in which a state prisoner has defaulted his federal claims in state court pursuant to an independent
and adequate state procedural rule, federal habeas review of the claims is barred unless the prisoner can
demonstrate cause for the default and actual prejudice as a result of the alleged violation of federal law,..."
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
"[Government inaction such as delay in mailing a prisoner's court filing is one objective factor that may constitute
cause for a prisoner's failure to comply with a state's procedural rule. 730 F.3d at 560: see also Maples, 340 F.3d at
439. Henderson also makes clear that a prisoner is not required to point to specific government conduct
demonstrating inaction or interference to demonstrate cause. 730 F.3d at 560. Once a prisoner gives his state
court filing to prison officials to be mailed, it is in their control and he no longer has the ability to affect its

27

I

delivery. Id. If the filing would have been timely filed 'in the normal course of events' but is filed late or never
reaches the court, the prisoner has demonstrated cause to excuse the procedural default. Id. (quoting Maples, 340
F,3d at 439); see also Ivy, 173 F.3d at 1141 ("[l]t [is] incumbent upon the State to ensure that [the prisoner's] ;
motion was promptly put into the regular stream of outgoing mail.").
"In addition to cause,... must demonstrate prejudice before a federal court may review his procedurally
defaulted claim. Lundaren, 440 F.3d at 763-64. Maples provides the proper framework for this inquiry because it
addresses prejudice in the same context as here—where the state's inaction prevented a timely filing. 340 F.3d at
439. In Maples, the court held that the petitioner suffered prejudice when 'the Michigan Supreme Court refused to
consider Maples's claim of ineffective assistance of counsel.'/d. The Henderson court followed Maples and
effectively assumed prejudice, holding that the untimely filing did not render the petitioner's claims procedurally
defaulted. Henderson. 730 F.3d at 560. District courts also have followed Maples, finding prejudice where state
inaction caused an untimely filing. (Internal citations omitted.) Here, as in Maples,... was prejudiced by the state
court's refusal to hear his ineffective-assistance-of-counsel claim. See Maples. 340 F.3d at 439." Foster v. Warden
Chillicothe Inst., 2014 Fed. App. 650, 654-55(6™ Cir. 2014)
"The omission of a 'viable' issue, however, does not in and of itself constitute ineffective assistance of
counsel. See . United States v. Cook. 45 F.3d 388, 394 (10th Cir. 1995)('The Sixth Amendment does not require an
attorney to raise every nonfrivolous argument on appeal.'). '[The] process of 'winnowing out weaker arguments on
appeal and focusing on' those more likely to prevail, far from being evidence of incompetence, is the hallmark of
effective appellate advocacy.' Smith v, Murray, 477 U.S. 527. 536.106 S. Ct. 2661, 91 L. Ed. 2d 434
(1986) (quoting Jones v. Barnes. 463 U.S. 745. 751-52, 103 S. Ct. 3308. 77 L. Ed. 2d 987 (1983)1. Nevertheless, the
omission of a 'dead-bang winner' by counsel is deficient performance which may result in prejudice to a
defendant. Cook, 45 F.3d at 395. A 'dead-bang winner' is 'an issue which was obvious from the trial record and one
which would have resulted in a reversal on appeal.'" United States v. Challoner, 538 F.3d 745, 749 (10th Cir. 2009).
"In relation to the defense of accident in a criminal action, this court has noted that, as a general proposition, an
'accident' refers to an unfortunate event which takes place by chance or casually. State v. Brady (1988), 48 Ohio
App. 3d 41. 42, 548 N.E.2d 278. quoting State v. Lovejoy (M.C. 1976), 48 Ohio Misc. 20, 25. 357 N.E.2d 424. We
have also noted that, if the facts of a case warrant an instruction on this defense) a trial court is required to inform
the jury that "'proof of accident negates guilt ***.'" 48 Ohio App. 3d at 42. quoting State v. Rivers (1977), 50 Ohio
App, 2d 129, 361 N,E.2d 1363. paragraph six of the syllabus. The latter assertion is clearly based upon the fact that
a finding of accident supports the conclusion that the defendant had not acted with the required mens rea.

Pursuant to the foregoing discussion, this court concludes that the trial court erred in failing to give the requested
instruction on the defense of accident. Accordingly, appellant's first assignment has merit." City of Mentor v.
Hamercheck, 112 Ohio App. 3d 291, (11th Dist. 1996). See, also, State v. Howell, 137 Ohio App. 3d 804(llth Dist.
2000). [Emphasis added.]
A habeas corpus petitioner "[would be] entitled to an evidentiary hearing [in federal court] if he [could] show
cause for his failure to develop the facts in state-court proceedings and actual prejudice resulting from that
failure./Ceenev v. Tamavo-Reves, 504 U.S. 1,11,118 L. Ed. 2d 318,112 S. Ct. 1715 (1992)." Banks v. Dretke, 540 U.S.
668, 690 (2004); see also, Mitchell v. Rees, 114 F.3d 571, 577 (6th Cir 1997).
Further under Rule 8(c), Rules Governing § 2254 Cases, appointment of counsel would have been mandatory
within the required evidentiary hearing: where petitioner would have qualified for counsel under 18 U.S.C.§
3006A.
"A habeas petitioner has a limited right to legal assistance. The Fifth and Sixth Amendment rights to counsel do not
apply to habeas corpus proceedings. See Pennsylvania v, Finley, 481 U.S. 551,555-56,107 5. Ct. 1990, 95 L. Ed. 2d
539 (1987); Douglas v. Maxwell, 357 F.2d 320, 321 (6th Cir. 1966). Instead, Section 3006A of Title 18 of the United
States Code governs a court's appointment of counsel to a habeas petitioner. 28 U.S.C. § 2254(h). If a court finds

28

Petitioner then filed a notice of appeal and a certificate of appealability with the United
States Court of Appeals for the Sixth Circuit on 03/03/2015. (Doc. 95). And on 07/23/2015, the
Federal Sixth Circuit denied said COA; therein pronouncing in pertinent part:

"Brown's Rule 60(b)(4) motion, filed on November 12, 2014, was not filed 'within a
reasonable time'13 after the district court's August 5, 2003 judgment, as eleven years
elapsed between the two. Brown was no doubt aware thatthe district court denied
the second ground for relief raised in his habeas as procedurally defaulted at the time
that the judgment was rendered, yet he did not pursue this motion until eleven years
i

later14. Brown's motion was clearly untimely. See Bridgeport Music, Inc. v. Smith, 714
F. 3d 932, 943 (6th Cir. 2013); United States v. Dailide, 316 F. 3d 611, 618(6th Cir. 2003).
Reasonable jurist would not find it debatable whether the district court was correct in
ruling that Brown was not entitled to relief under Rule 60(b) (4)."

jd,Appendix D. And please notice that absent are the names of any Panel and Judge(s).

that an evidentiary hearing is required in a habeas proceeding, it must appoint counsel to the habeas
petitioner. See Rule 8 of the Rules Governing 28 U.S.C. § 2254." Parsons v. Money, 2007 U.S. Dist. LEXIS
13021,[**22- 23j(N.D. Ohio). (N.D.Ohio)
"The writ of habeas corpus is the fundamental instrument for safeguarding individual freedom against
arbitrary and lawless state action. Its pre-eminent role is recognized by the admonition in the Constitution that:
"The Privilege of the Writ of Habeas Corpus shall not be suspended ...." U.S. Const.. Art. I. 4 9. cl. 2. The scope and
flexibility of the writ - its ability to cut through barriers of form and procedural mazes -- have always been
emphasized and jealously guarded by courts and lawmakers. The very nature of the writ demands that it be
administered with the initiative and flexibility essential to insure that miscarriages of justice within its reach are
surfaced and corrected. As Blackstone phrased it, habeas corpus is "the great and efficacious writ, in all manner
of illegal confinement." As this Court said in Fwy v. Noia. the office of the writ is "to provide a prompt and
efficacious remedy for whatever society deems to be intolerable restraints." Harris v. Nelson, (1969) 394 U.S.29192(1969).

13 The United States Supreme Court, has held, in United States Aid Funds Inc. v. Espinosa 559 U.S.260(2010); that a
Fed. R. Civ. P- 60(b)(4) is to be analyzed so as to determine: if litigants had slept on their rights, not whether the
60(b)(4) motion had been filed "in a reasonable time." And the habeas record clearly shows that Petitioner,
proceeding pro se, did not sleep on his rights.
14 The United States Court of Appeals for the Sixth Circuit had been made well aware that Petitioner had filed well
in excess of five (5) Rule 60(b) motions, prior to his submission of said 60(b)(4) motion.

29

;

However this ruling by the Sixth Circuit Court of Appeals is unsupported by the
record, as well as contrary to firmly established law as established by the
United States Supreme Court.
Brown double demonstration of cause and prejudice consisted of the following
to excuse his default for Ground Two’s constitutional claim:

J.

Appellate counsel was ineffective for failure to raise the following
dead-bang winner on direct appeal.
a.
b.

2.

Trial court's refusal to give a theory of defense instruction - i.e.
accident instruction.
Trial counsels' failure to object to the trial court's refusal to
. give the jury a requested accident instruction.

The objective factors external to the defense -prison officials.
a.

Lack- of access to a Notary, so as to comply with App. R. 26(B)(2)(d)
prevented Brown from mailing his App. R. 26(B) application on the day
that he intended: 06/28/2000. In fact, after waiting for a total of
two days — beginning the afternoon of the 28th to the end of business
on the 29th — for a notary and, still not being granted access to
one: Brown had no other choice but to relinquish control of his
R. 26(B) application.

In fact, the above vague depiction, is the most descriptive Judge Nugent has been
in his pronounced analysis of the sufficiency of said. And this in spite of great
efforts by Brown to receive simply: a clear articulation of the basis of the habeas
courts' judgment(s). See, e.g., in reply to Brown's timely filed Fed. R. Civ. Proc.
59(e) motion, Judge Nugent's Marginal Entry Order read: "THIS COURT HAS REVIEWED
PETITIONER’S 'RE-ARGUMENT OF MERITS' (cause and prejudice argument) AND FINDS NO
BASIS TO ALTER ITS PREVIOUSE (sic) JUDGMENT DENYING ORIGINAL PETITION." (EFC#42.).
And in response to another of Brown's post-habeas motions, Judge Nugent's
Marginal Order reads: "COURT HAS CONDUCTED DE NOVO REVIEW AND FINDS NO REASON TO
MODIFY ORDER OF 8/8/03." (EFC#46.)

30

over to prison authorities for mailing mail on the morning 06/30/2000
absence the required sworn statement (affidavit).'
b.

The delayed mailing of Brown's 26(B) by prison personnel, on 06/30/2000.
Brown argued and proved that in the normal course of events: sent and
received mail^to and from, the Trumbull County Clerk of Courts Office
required only one business day.§

Id. EK#J6, pgs. 40-51.
Petitioner, under indigent pro se status, filed a Civ. R. 60(d)(1), in
conjunction with FRCP 15(c)(1)(B), in the District Court challenging the procedural
default ruling on his Babeas Ground Two for Relief, by asserting the following:
"CLAIM FOR RELIEF:

The judgment rendered during Petitioner’s 2254 habeas,

and post-habeas, proceeding(s) can only be described as an illegal
suspension of the Great Writ: in direct regard to Petitioner’s Ground
Two for Relief. Where Petitioner, to date, has been denied the benefit
of his defense by the federal district court failure, on a continuous1
basis, to analyze the double cause & prejudice presentation (contained
within the Petitioner’s Traverse); which Petitioner presented to excuse
the procedural default of Ground Two.
To this the United States District Court in denying Petitioner's hybrid Civ. R.
60(d)(1) motion simply held, in pertinent part:.
[Mr. Brown presented no new evidence and made no showing of actual
innocence. Because a showing of actual innocence is a required element for an
independent action for relief under Rule 60(d), Mr. Brown cannot show that he is
eligible for relief under this rule."

31

8.

This was/is clearly documented with State's Exhibit 50: an exhibit which Brown referenced
no less than four (4) time within his Traverse. Id. ETC J6, pages 46, 48. The contents of
said exhibit are (J) an affidavit from the responsible Notary fljblic attesting to the fact
that Brown was made to wait from 06/28/2000 to 07/05/2000 for a notary; and (2) a zerox copy
of cadi mail out slip - to mail cut Brown's 26(B) via certified mail - that was dated
06/28/2000 and endorsed by two prison officials (per prison policy).
This was/is clearly documented within numerous documents contained within State's Exhibi t 53;
an exhibit which Brown referenced twice within his Traverse. Id. (ETC#] 6,

32

47).

Petitioner then filed bis notice of appeal. And thereafter filed his
COA application raising the following questions, with the United States Court
of Appeals for the Sixth Circuit:
REQUEST FOR A CERTIFICATE OF APPEALABILITY
Questions

J.

Within this Circuit, in the context of a Fed,. R. Civ. Proc. 60(d)(J),
should there be an exception to the general rule — a showing of
actual innocence r-via the relationship back rule under Fed. R.
Civ. Proc. J5(c)(J)(B) and/or the Equitable Tolling Provision: when
it is shown that a habeas petitioner through no fault of his/her
own has been denied the benefit of bis defense where: (a) she/he
bad done all initially required of them within the original habeas
proceedings; and (b) habeas relief would have been warranted had
the constitutional merit(s) of the underlying claim been determined
within the original habeas proceeding?

2.

Within this Circuit does there exist any post-babeas motion which
would permit a habeas petitioner to be entitled to the relationship
back rule, under Fed. R. Civ. Proc. J5(c)(J)(B), and/or the Equitable
Tolling Provision: when it is shown that a habeas petitioner (a) had
through no fault of his/her own been denied the benefit of bis
defense during the original habeas proceeding; (b) had been misled,
inadvertently or otherwise, by the habeas court in regard to the
existence or sufficiency of said defense; (c) diligently pursued
said post-habeas remedy
33

THE COURT OF APPEALS,IN DENYING PETITIONER'S COA
SIMPLY HELD,IN RELEVANT PART:
"Although Brown asserts that he has shown cause excusing the
procedural default of his jury-instruction claim because the prison
failed to mail his Rule 26(B) application in a timely fashion,
Brown has failed to offer any evidence of actual innocence."
Id. AppendixQ.
Petitioner then filed a petition for rehearing with suggestion for rehearing
En Banc, where, therein, he respectfully asserted the following:
Clearly, the July 27th panel failed, entirely, to address petitioner s
second question: as to whether he was entitled to a COA under post-habeas remedies i.e. uner Rule 60(b) - in view of the substantial evidence contained therein,
documenting the continuous denial of due process he received during his habeas
and post-habeas proceedings, within the district court as it directly pertained
to his Ground Two for Relief. Citing in support: Buck v. Davis, J37 S. Ct. 759,
774 (20J7).

Whereas, the Court held in pertinent part: "[Tjhe original panel

has reviewed the petition for rehearing and concludes that the issues raised in
the petition were fully considered upon the original submission and decision of
the case ..." Id. AppendixQ.
CONSIDERATIONS GOVERNING REVIEW ON CERTIORARI
1).

The United States Court of Appeals for.the Sixth Circuit has entered a
decision in conflict with a decision of the majority of the United States
Court of Appeals on the same important matter. The Sixth, First, and Third
Circuits: prescribes that in order to be entitled to relief so as to prevent

34

a grave miscarriage of justice under Fed. R. Civ. P. 60(d)(3): a habeas
petitioner must first mate a strong showing of actual innocence.
To wit:
Mitchell v. Res, 653 F. 3d 593, 596 (6th Cir. 2033).
Maher v. United States, 2032 U.S. Dist. Lexis 345355 (D. Me. 2032)(3st Cir.).
Scott v. United States, 2035 U.S. Dist. Lexis 323896, [*33] (D. Del. 2035)
(3rd Cir.).
In contrast, the remaining Circuit Courts have held that "a grave miscarriage of
justice" showing in a habeas context, under Fed. R. Civ. P. 60(d)(3), can be
satisfied by showing that the underlying judgment would be "manifestly unconscionable"
or "a grave injustice" if left standing.
See, e.g., the following:
Alvarez v. United States, 2036 U.S. Dist. lexis 389803 [*35] (E.D. N.Y.)

(2nd Cir.).
Hudson v. United States, 2038 U.S. Dist. Lexis 46029, [*3] (W.D. N.C.)
(4th Cir.).
Johnson v. Davis, 746 Fed. Appx. 375, 380 (5th'Cir.).,
Christian v. Frank, 2039 U.S. Dist. I^exis 233905, [*39] (D. Haw)(9th Cir.).
Clemmons v. Davis, 826 Fed. Appx. 732 (30th Cir. 2020).
United States v. Carter, 2034 U.S. Dist. Lexis 333290 (M.D. Ala.) (33th Cir.).
The decision, if left undisturbed, will stand as a binding precedent within the
First, Third, and Sixth Circuits.
Rule 30(a): The Court of Appeals, for the Sixth Circuit, has sanctioned the lower
court to knowingly so far depart from the accepted and usually course of judicial

35

proceeding in the review and determination of a pro se prisoner cause & prejudice
presentation(s), that a call for an exercise of this Court's supervisory power
is sought.
Petitioner, within his Traverse Brief, did all that was required of him
pursuant to Edwards v. Carpenter in presenting a substantial presentation of
cause & prejudice — regarding ineffective assistance of direct appeal appellate
counsel and also regarding prison authorities delayed processing and mailing of
his Ohio Appellate Rule 26(B) Application — to excuse the procedural bar placed
against petitioner's Ground Two for Relief.
Yet, because said cause & prejudiced presentations were contained with the
Traverse after the actual constitutional claims of ’Ground Two' the district court
not only refused to analyze said cause & prejudice presentation(s) —thereby
continuing to bold Ground Two as procedurally barred; but the district court
caused petitioner to then thereafter question the adequacy of said presentations).
Moreover, had the district court evaluated the cause & prejudice, petitioner then
would rightfully be entitled to an evidentiary hearing and appointment of counsel:
where counsel could have then assisted petitioner in arguing the constitutional
merit of Ground Five for Relief: A United States.constitutional claim which had
been fully exhausted in State court.

A claimed error that petitioner had ensured

to inform the federal district court, within his (merit) Traverse Brief: That
he did not possess the legal know-how to argue.
RULE JO (A); The United States Court of Appeals for the Sixth Circuit, has entered
a decision in conflict with a decision of another United States Court of Appeals
on the same important matter.

Namely, the Tenth Circuit has held in Weldon v.

Pacweco, 715 Fed. Appx. 837, 842, that:

36

When a 2254 petitioner has asserted

within a Pule 60(b)(4) motion that the district court has deprived him of due
process due to an erroneous procedural bar ruling, "Determining whether the
district court correctly denied Weldon relief under this standard is a matter
that requires us to engage in appellate review of sufficient depth to warrant
the grant of a COA. See, Buck, J37 S. Ct. at 773." Id.
Petitioner's Second question, contained within his application for a COA,
reads: "Within this Circuit does there exist any post-babeas motion which would
permit a.habeas petitioner to be entitled to the relationship back rule

#••

and/or equitable tolling provision: when it' shown that a habeas petitioner ...
been denied the benefit of bis defense during the original habeas proceeding ..."
Id.

CONCLUSION
Petitioner respectfully submits that: Certiorari is appropriate when "A
United States Court of Appeals ... has so far departed from the accepted and
usual course of judicial proceedings ... as to call for an exercise of this
Court's supervisory power."
Sincerely submitted,

Felix 0. Brown
2 -676
Grafton Correctional Institution
2500 South Avon-BeIden Road
Grafton, Ohio 44044
PETITIONER IN PRO SE.
37

